f
(H) -13
No.

ni:i^
r r\ n a r
*■.? i i.\' rbu

rCw,

3n«6t

Supreme Court of tljc 3Hniteb States!

MICHAEL F. KISSELL,
Petitioner,
v.
COMMONWEALTH OF PENNSYLVANIA
DEPARTMENT OF CORRECTIONS
OFFICE OF THE ATTORNEY GENERAL
ANTHONY T. KOVALCHIK—DEPUTY ATTORNEY GENERAL
Respondents.

Denied Appeal from Third Circuit Court of Appeals

PETITION FOR WRIT OF CERTIORARI

Michael F. Kissell
Proceeding Pro Se
1027 Quincy Drive
Greensburg, PA 15601
Telephone: 724-834-3920
mkisselll027@comcast.net
Filed Primarily June 17. 2020

FILED
JUM 15 m

■v

i

QUESTIONS PRESENTED
1. Whether subject matter jurisdiction matter was properly
invoked involving a continuing violation of Title VII, 1983
etc in the underlying claims of retaliation and hostile
environment conditions in the reinstatement process of a
jury award and reinstatement.
2. Whether a timely well-pled complaint and court record
pleading was sufficient to withstand dismissal by Rule 12
(b)(6) when a prior case won by Jury trial by the petitioner
is a continuing violation of repeated acts and or the
petitioner is accused of being handicapped disabled.
3. Whether the District Court and the Third Circuit deviated
from acceptable judicial proceeding in this case that
requires this courts supervisory power pursuant to Rule 10.
4. Whether procedural process denied the rights of the
petitioner by misrepresentation and criminal acts during
the appeals process and the misleading and violations of the
rules of professional conduct involving attorneys hired by
the petitioners
5. Whether the Respondents attorney took steps to overturn a
jury award by misguided and criminal acts. Aiding and
abetting the distribution of the Back Pay Award to avoid
proper IRS Tax reporting and withholdings. Giving and
allowing the petitioners attorney Leonard Sweeney to
illegally endorse forgery of the check to cash out of State.
Commingling the funds without the knowledge of the
petitioner. TAX FRAUD

I

ii
Questions Continued
6. Whether Petitioners Attorney Christopher P. Skatell
misrepresented the petitioner. The Petitioner does not
understand the filing of case No. 2:18 -cv-01409 by his
attorney when the attorney was fully briefed and knew of
the appeal PRO SE and the extension was denied knowing
that he had to File for the Writ of Certiorari. To file the
1983 and Title Vii would be fruitless and the case would be
dismissed by res judicata. Unbelievable especially after the
promises of Christopher p. Skatell to prosecute Leonard
Sweeney, to end my pension hearing quickly with the
evidence supplied and to re-file my 1983. Title Vii claims
appeal to SCOTUS,
7. Whether Petitioner was abused of his constitutional rights
to protect the perpetrators by the attorney Christopher P.
Skatell involving violations of Professional Conduct while
draining the petitioners Bank Account while withholding
factual evidence from the Honorable Courts and Pension
hearing examiner. Falsely representing the petitioner for
monetary and political gain.
8. Whether the petitioner was set up into Tax Fraud one way
or the other.
9. Whether a Lower Court is or is not Restricted to Act Even
when a case is marked as Closed on the Docket and
Notices. Case 97-0786 Case3-15-cv-00058 and Case No.
2:18-cv-01409

I

iii
LIST OF PARTIES
. The following is a list of all parties to the proceeding in the court below,
as required by RULE 24.1 (b) and Rule 29.1 of the Rules of the Supreme
Court of the United States
1. Michael F. Kissell, Petitioner
2. Pennsylvania Department of Corrections
Commonwealth of Pennsylvania
Office of the Attorney General
Deputy Attorney General
Anthony T. Kovalchik, Respondents

.1^

r*

iv
TABLE OF CONTENTS—Continued
Page
Questions Presented

1, n

List of Parties

in

Table of Contents

iv

Table of Authorities

,v

Opinions Below

1

Jurisdiction
Constitutional and Statutory Provisioninvolved
Statement of the Case

,....1,2,3
,...4-13

Conclusion

13

Certificate of Service

14

Appendices
United States Court of Appeals for the Third Circuit Opinion
and Judgment, June 8, 2020

k

>

V

TABLE OF AUTHORITIES
Title VII continuing violations of 2000e case 97-0786
Civil Rights Act of 1871 42.S.C and 1983
First Amendment to Free Speech
7th Amendment right to Juiy Trial over 20. Dollars
9th Amendment
14th Amendment right to procedural Due Process
Pennsylvania Human Relations Act 43 P.S. 951-63 (PHRA)
Charlton v Paramus Bd of Educ.
25 F.3d 194,201 3rd circuit
Weiss v. Parker Hannifan Corp.
747. FSupp.ll 18 1128 D.N.j 1990
Burdine 450 U.S. 450 at 256
Bailey v Glover
National R.R . Passsenger Corp v Morgan
2002 Opinion U.S. Supreme Court
Cooter&Gell v Hartmark Corp. 496 U.S. 384 395, 1 lOS.Ct
2447,110 1 Ed 2d 359

»
/
If' 1

1
Petitioner, Michael F. Kissell, having first-hand knowledge of the
events in this case respectfully petitions for writ of certiorari or relief by
review ofjudgment of the United States Third Circuit Court of Appeals
(Third Circuit).
The legal citations and arguments used are those of a layperson without
any formal or informal legal training. Therein, Michael respectfully asks
this Court’s indulgence for the less educated.

OPINIONS BELOW
The unpublished decision and order of the United States Court of
Appeals for the Third Circuit is attached as Appendix 1-0.

JURISDICTION
The judgment of the Third Circuit court of appeals was entered on June
8, 2020. App. 1.
The jurisdiction of this Court is invoked under 28 U.S.C § 1254.

CONSTITUTIONAL AND STATUTORY PROVISONS
INVOLVED
-U.S. Const., First amendment provides
“Free speech the right to petition the governmentfor redress of
grievances. ”
- U.S. Const., Seventh amendment provides

i

2
“The right to ajury trial in certain civil cases and inhibits courts from
overturning ajury’s finding offact. ”
- U.S. Const., Ninth amendment provides
“The enumeration in the Constitution, of certain rights, shall not be
construed to deny or disparage others retained by the people. ”
- U.S. Const., Fourteenth amendment provides
“..NO State shall make abridge the privilege or immunity of the citizens
of the United States; nor shall any state deprive any person of life,
liberty, or property without Due process of law; nor deny to any person
the equal protections of the law. ”
-28U.S.C. §1331 provides
“The Distinct courts shall have originaljurisdiction of all civil actions
arising under the Constitution, laws, or treaties of the United States. ”
-Federal Doctrine of Fraudulent Concealment Bailey v. Glover: (1)
“diligent”-,
(2) “concealment”
That a federal Court may consider issues after an action is no longer
pending, Cooter & Gell v. Hartmarx Corp, 496 U.S. 384,395, 110 S.Ct.
2447 L.ED.2d359. including the imposition of costs, attorney’s fees, and
contempt sanctions, the imposition ofa Rule 11 sanction, id, at 396,110
S.Ct. 2447,-Bechuckv, Home Depot U.S. Inc., 814 F.3d 287,291-92 (5th
Cir. 2016
-Title VII of the Civil Rights Act of 1964 as amended (42 U.S.C.
§§2000e) and 1981 provides
“[i]t shall be an unlawful employment practice for an employer to
discriminate against any of his employees... because he has made a
charge ”

V

\t

3
(a) Discrimination retaliation harassment
(b) Asking managers about salary information to
uncover discrimatory wages tax issues withholding
benefits
(c) Making a person work station more difficult
punishing a employee
(d) Title V American with Disabilities Act
(e) The equal pay act
(f) Material adverse employment action attachment of a
jury award and attachment of Pension FRAUD
(g) Repeated violations at new work location
(continuing violations) National R.R Passenger Corp
v Morgan 2002 opinion U.S. Supreme Court
-Federal Rules of Civil Procedure 8 provides:
(a) Claim for Relief. A pleading that states a claim for
relief must contain :
(b) A short and plain statement of the grounds for the
courts jurisdiction, unless the court already has
jurisdiction and the claim needs no new
jurisdictional support;
(c) A short and plain statement of the claim showing
that the pleader is entitled to relief;and
(d) a demand for the relief sought,which may include
relief in the alternative or different types of relief

\

;

4
STATEMENT OF THE CASE
Petitioner Filed a timely Complaint PRO Se, the petitioner is not
educated in the ways of the Courts but realizing the Fraud and Tax Fraud
that was initiated by his past attorney Leonard Sweeney and that the
collusion by the petitioners attorney and that of the respondents attorney
Rodney Torbic were to overturn a jury Back Pay Award in case 97-0786,
Kissell v Department of Corrections SCI Greensburg ,Pa.
Petitioner filed a claim for damages and loss of employment for
Reported Hostile conditions causing death of inmates etc. and forced
retirement seeking a trial by Jury. The actions by the respondents. Set
the petitioner up by concealment of additional monies issued in the name
of petitioners and given to petitioner’s attorney Leonard Sweeney
without the knowledge of the petitioners and then illegally endorsing the
checks and cashing them out of state in OHIO. Without petitioners
knowledge creating a
misappropriation of Government Funds , violations of proper payroll
procedures in violation of Internal Revenue Service procedures and
withholdings in violation of Law.
The petitioner a corrections officer one was reinstated to SCI
Laurel Sommerset ,Pa. on November 15, 2004. Where the proper W-4
was filled out and the employer was informed of the award of Back Pay.
The continuation of a hostile environment throughout the years by the
failures and the violations of Union Bargainig rights, the withholding
benefits and concealment of proper tax reporting were of major concern
to the petitioner and were used as retaliatory tools to force retirement or
to Quit. The retaliation by attachment of my wages and the continued
hostility and the dangerous situations at the petitioners work location
forced the petitioner to retire and then the attachment of my pension was
disparaging. The petitioner emotional and mental abilities were drained..

5
The pre summed failures of the Attorney Mark Bolkovac led the
petitioner to believe continued collusion existed between the respondents
and petitioners attorney to delay, conceal and cover-up the many crimes
being reported by the petitioner.
The petitioner then filed case 3-15-cv-00058 PRO SE due to the
Hostile Enviroment that had been activated against the petitioner to
correct the damages forced upon the petitioner and the imposed attorney
fees.
The Lower Courts focused on the agencies MOTIONS to
DISMISS for failure to State a Claim without depositions, interrogatories
or to allow evidence or pleadings allowing the Respondents . Quick
move to Dismiss allowing the damages to continue to esculate. Knowing
the petitioner was entitled to relief by Law and the earlier decision of the
JURY AWARD. Where relief was granted Case 97-0786.
The responsibilities of the petitioner by the code of ethics led to
sworn statements involving: criminal acts of Rape, Sexual Harassment,
sexual assault, theft and negligence by staff that caused death of inmates.
The petitioner was the block officer on most situations and was the
primary responder and witness.
The Lower Court were advised of the criminal acts and Tax
Fraud by the prior Attorneys involved and requested the lower court
assign an attorney to protect the petitioner’s constitutional rights. When
the Third Circuit Court suggested this action to the lower Court to amend
the complaint the plaintiff requested assignment of an attorney and juiy

6

trial but the request was quashed and the Trial matter was denied and
dismissed. The petitioner stated a claim for excessive damages.

The Lower Courts were obligated to take the well pleaded
evidence and facts as accurate and true knowing the petitioner was
entitled to relief and by progressing to a non bias Jury Trial. Knowing
the limitations of the petitioner to proceed Pro Se the lower courts
diminished their responsibilities to a fair trial an constitutional rights.
The Respondents representative’s pleadings were in bad faith
and were failures to the Rules of the courts Civil and Criminal Law.
They moved ( Sua Sponte) The Respondents agenda was politically
motivated to permit fraud upon the courts and the Internal Revenue
Service. Still using the prior jury award of Back pay as the vehicle to
punish the plaintiff while throughout the years continuing a hostile
environment. The petitioner has reported the criminal acts of his
attorney and that the opposition attorney Rodney Torbic from the Office
of the Attorney General in the year 2002 to Josh Shapiro Attorney
General of Pennsylvania Involving the Misappropriation of Government
Funds. The continued concealment and failures of proper reporting
procedures to the IRS, Tax Fraud, those reported for sexual assault and
those responsible for negligence involving the of death of inmates.
Mr. Shapiro would not respond and his Criminal Division Quashed the
criminal charges dismissing the Case.

s

7

To The Honorable Supreme Court Justices and Especially Justice
Samuel Alito

Because I have no choice but to Represent myself due

to the malicious actions of the past attorneys involved it is apparent
that the attorneys representing my employer chose to impose their own
directives and opinions to change my jury award because they could not
accept their loss. Placing the petitioner in Tax Fraud to this very day.
The petitioner had a new IRS Trial Date on February, 8 2021 which
now again has been continued.
The collusion between the petitioners attorneys and the
respondents representatives led to many discriminative actions against
the petitioner and staff that supported the petitioner which in it self
allowed many innocent staff mainly female to be humiliated and hurt to
the point some did not return to work while the others feared a bullseye
would be placed on their back for their reporting of Sexual assault.
I am requesting The Honorable United States Supreme Court to
review my Appeals and exhibits on record in case 19- 3229 from district
Case No. 2:18-CV-01409-CRE filed 10/22/19 which should have never
been filed by my newly hired attorney Christopher Skatell . Mr Skatell
has deceived the petitioners involving the previous requests for Writ of
Certiorari-Filed 1/28/17, 4/21/17 and 5/25/17 and even helped write the
last request for extension to get better affiliated with the matters.

\

8
I had previously filed to represent myself Pro SE because of the
deceit and collusion involving my jury award trial case 97-0786
involving the illegal actions of the attorneys involved to fraud the Taxes
of my back and front pay awards and the continuing hostile environment
1 endured.
I filed Case NO. 3:15-CV-00058 PRO SE on 3/9/15.1
discovered I could appeal Pro-Se to the Honorable Supreme Court so I
did.

On 1/28/17 I filed a request Pro SE for an extension of time. I was

then advised by the clerk of SCOTUS and others to hire an attorney
instead of representing myself after explaining the background of my
Trial matter in the District Court to the Clerk.
I was respectfully requesting my cases to be reviewed by the
Honorable Supreme Court because of the Facts and Criminal Acts I was
ordered to write in my job status and the Sexual Harassment and
retaliation that I suffered and was oppressed by my employer and my
Union . The cases are as follows: Case No. 3:15-CV-00058 filed
3/9/15, appeals no. 15-2654, and No. 16-1900. So I started interviewing a
couple of Attorneys and hired Christopher P. Skatell on 01/31/17 paying
him $8000.00 dollars in February to start to review the federal cases of
Title VII and 1983 Civil rights case listed above that were dismissed by
the Court with no interrogatories or depositions under the pretense I did
not state a claim. I paid Mr. Skatell approximately $4000 per month as
he deceived me in his invoices he was reviewing my Federal Case 970786 and my Pro Se

9
Case No. 3-15-cv-00058 and was going to proceed with WRIT of
CERTIORARI. Mr. Skatell was also hired for representation of a
Pension Hearing Case involving tax fraud and his declaration he was
going to go after my previous attorney Leonard Sweeney after our
discussions of Sweeney criminal act of illegally endorsing and cashing a
back pay check payable to me in 2004, without my authorization in the
state of Ohio. Mr. Sweeney’s collusion with the Office of the Attorney
General led to the attachment of my pay eight years later and the
continued harassment forcing me to retire to address the Hostile
environment installed against me. Mr. Skatell apparently kept deceiving
me by his invoices and further misguided delays and the misguided Title
Vii case he filed knowing it would be easily dismissed by the Office of
the Attorney General due to res judicata I have always been limited to
narrow windows, no witnesses and stonewalling. Furthermore, my
pension hearing was delayed for years and I finally received the decision
when Mr. Skatell advised me to get a new attorney to Appeal his failures
and he was exposed for failing to present the Writ of Certiorari. Mr.
Skatell took no further steps to represent me when The District Court
dismissed my case and his communications broke down aiding my
perpetrators to escape prosecution. The petitioner attorney Christopher
P. Skatell inhibited the EVIDENCE of DOCUMENTATION in my legal
matters so the evidentiary materials would be held from the court and no
trial would occur and failed to place evidence and rebut the pension
hearing examiners recommendation. The petitioner fearing the same

10

repeated action will represent themselves Pro Se in the Tax Court
Lacking the Knowledge on how to proceed. The petitioners would not be
in tax court. The pension hearing would have ended it had our attorney
Mr. Skatell properly represented the petitioner and the facts.
I myself had to request the Hearing Examiner Decision and the Decision
of the Pension Board which was sent to me on or About May 8, 2020 at
which time I discovered Mr. Skatell failed to supply sufficient Evidence
he was given and failed to file exceptions to the Opinion and
Recommendation of the Hearing Examiner. Politics again started to rule
my trial matter to obstruct justice of the crime involving: the death of
inmates due to negligence, theft of prescribed medication by managerial
staff, sexual assault of staff, sexual harassment and other crimes. Mr.
Skatell lied to me to make me believe the Writ of Certiorari was filed he
then filed District Case No. 2:18-cv-1409-Cre WHICH HE USED AS A
SHIELD TO PROTECT THE PERPETRATORS AND AID THE
COVERUP OF CRIMES BY THE EMPLOYER AND THEIR
REPRESENTATIVES to stonewall and delay my trial matter for his
financial and political gain. Mr. Skatell obtained approval from the
EEOC to re-file the Title VII claim. However, when I questioned Mr.
Skatell of the 1983 civil right charges he informed me that it was a long
way off about the 1983 civil violations but this turned out to be another
lie and I was deceived that the writ was filed so I would continue to pay
Mr. Skatell’s invoices monthly.

11

Mr. Sweeney who represented me in the 97-0786 case was
disbarred in 2013 for criminal actions. Furthermore, the disciplinary
Complaint written by my Tax attorney Patsy Iezzi in 2007 was covered
up by the Disciplinary Board to protect the Attorneys that were
involved. Mr. Skatell never advised me or the Pension hearing examiner
of the disbarment. I was informed after my pension hearing by my local
District Attorney Office of the disbarment of Mr. Sweeney when they
recused themselves from the criminal complaint I filed in 2019 written
by Mr. Skatell who then stayed uninvolved . The DA then recused the
case to the Pennsylvania AttomeyGeneral’s Office who assumed
jurisdiction. My Criminal Complaint was stonewalled and Quashed by
the Attorney General’s office. This is violating my constitutional rights. I
have paid Mr. Skatell $30,000 dollars in advance and he has duped me
and has billed me over $50,000 dollars. Mr. Skatell knowingly filed a
case that would be dismissed by res judicata then lied proclaiming he
knew nothing of the prior cases to aid in cover-up of the crimes of my
jury award and those committed at SCI Laurel by managerial staff. My
case was dismissed and Mr. Skatell stated he would not appeal the matter
aiding the office of the attorney General in the violation of my rights.

V

i

12

I request Guidance and Help from the Honorable Supreme Court
in the protection of my constitutional right and entitlements to law. I
request that I regain my jury award and the attorney fees that were
initiated without recovery and my trial either be reopened in the Lower
Court and that I have the right to proceed to be accommodated for the
damages I have endured due to the obstruction ofjustice by those I hired
and the Office of the Pennsylvania Attorney General josh Shapiro who
were in discussion with my prior attorneys and the cover-up of the
Deaths and many crimes that I reported as they occurred. This is so that I
am made whole as the jury awarded in 2002. Or I request the
Honorable Supreme court to order my employer to make me whole for
the losses they created by their deceit. The perpetrators used every
opportunity to make my work area hostile by discrimination, harassment,
and by overwhelming my work area. For example: I have suffered while
performing my job duties by the code of ethics for the deaths, theft of
state properties (prescription medication) and the written reports I was
ordered to write involving sexual encounter by staff with inmates and so
on. Again I was punished for doing my job by the withholding of my
benefits and additionally 8 years later in 2012 being punished by the
attachment of my wages and Pension for reporting of sexual assaults by
managerial staff of the female employees. It is apparent to me now that
the office of the Attorney General took steps to violate the jury award of
my Trial matter 97-0786 by the misguided distribution of the Back pay to

'■T

f

»

\

13
fraud the IRS and to set me up into further complications and has
controlled the outcome of my Trial Matters by oppression . I request
guidance as I am exhausted and hurt by these recurrent events. The
attorney Christopher P. Skatell was hired specifically to present a writ of
Certiorari to the United States Supreme Court involving my pro se
attempt in the lower courts for justice of the retaliation that were
initiated. The Trial matter CASE NO. 2:18-cv- 01409 CRE should have
never been filed by ATTORNEY SKATELL without first addressing the
Honorable SCOTUS. In ending the Petitioner has learned that reporting
crimes in the Department of Corrections to high level management that
are then discovered to be involved can be quite detrimental to his lively
hood and life.

CONCLUSION
The petition of writ of certiorari should be granted.

Respectfully submitted,

1027 Quincy Drive
Greensburg, PA 15601
Telephone: 724-834-3920
MKissell 1027@comcast.net
Filed Primarily Junel7,2020

